IN THE SUPREME COURT OF THE UNITED STATES
JASON HARRIMAN,
Petitioner,

vs.
MOTION FOR LEAVE TO

UNITED STATES OF AMERICA, PROCEED IN FORMA PAUPERIS

eee ye ee YS YS YS

Respondent.

Comes now the Petitioner, Jason Harriman, and in support of this
Motion for Leave to Proceed In Forma Pauperis, states to the Court as follows:

1. The Petitioner was incarcerated as a result of the sentence he
received in this case. He does not have any assets at this time.

2. The undersigned attorney, Wallace L. Taylor, was appointed to
represent the Petitioner in his appeal to the Eighth Circuit Court of Appeals
under the Criminal Justice Act, 18 U.S.C. § 3006A(a)(6).

3. The Petitioner has not sought leave to proceed in forma pauperis in
any other court.

WHEREFORE, the Petitioner, Jason Harriman, requests leave to file
the attached Petition for Writ of Certiorari without prepayment of costs and to

proceed in forma pauperis.
2 ——_

F , ae “

WALLACE L. TAYLOR
Attorney at Law

4408 First Ave S.E., Suite 402
Cedar Rapids, Iowa 52402
319-366-2428;(Fax)319-366-3886

ATTORNEY FOR PETITIONER
